                    Fiscal Year 2005 Statutory Review of
                     Compliance With Lien Due Process
                                 Procedures

                                     June 2005

                       Reference Number: 2005-30-095




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION


                                                         June 15, 2005



      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Fiscal Year 2005 Statutory Review of
                                    Compliance With Lien Due Process Procedures
                                    (Audit # 200430026)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      compliance with lien due process procedures. The overall objective of this review was
      to determine whether the Notices of Federal Tax Lien (NFTL) filed by the IRS complied
      with legal requirements set forth in Internal Revenue Code Section (I.R.C. §) 6320.1
      The IRS attempts to collect Federal taxes due from taxpayers by sending letters,
      making telephone calls, and meeting face to face with taxpayers. When initial contacts
      by the IRS do not result in the successful collection of unpaid tax, the IRS has the
      authority to attach a claim to the taxpayer’s assets, called a Federal Tax Lien, for the
      amount of unpaid tax liabilities.2 The IRS files an NFTL, which notifies people that a lien
      exists. Since January 19, 1999, I.R.C. § 6320 has required the IRS to notify taxpayers
      in writing within 5 business days of the filing of an NFTL.
      The Treasury Inspector General for Tax Administration (TIGTA) is required to
      determine annually whether NFTLs filed by the IRS comply with the legal guidelines in
      I.R.C. § 6320.3 This is the seventh annual audit performed on the IRS’ compliance with
      the law and its own related internal guidelines when filing NFTLs.
      In summary, we determined the IRS did not completely comply with the law. Our review
      of a statistically valid sample of 150 NFTLs identified 7 NFTLs (4.67 percent) for which


      1
        I.R.C. § 6320 (Supp. V 1999).
      2
        I.R.C. § 6321 (1994).
      3
        I.R.C. § 7803(d)(1)(A)(iii) (Supp. V 1999).
                                             2

the IRS correctly mailed the lien notices; however, it did not mail the lien notices timely,
as required by I.R.C. § 6320. In addition, for another 35 NFTLs (23.3 percent), we could
not determine if the IRS complied with the law because the IRS could not provide proof
or legible proof of timely mailing. During the past fiscal year, the IRS changed
procedures for retaining certified mail listings, which contributed to this problem. Finally,
in 11 (7.33 percent) of the 150 NFTLs reviewed, the IRS did not follow its own internal
guidelines when issuing lien notices, including the guidelines for notifying taxpayer
representatives and resending notices when they are returned as undeliverable.
As corrective action to a prior TIGTA report, the IRS has partially implemented systemic
changes to improve the notification of taxpayer representatives; however, the
scheduled completion date for the enhancement was postponed from its targeted
date of the middle of Fiscal Year 2005 and now is scheduled for completion during
Fiscal Year 2008.
We recommended the Director, Collection, Small Business/Self-Employed (SB/SE)
Division, consult with the Office of Chief Counsel to identify any actions necessary to
correct the potential legal violations we identified in this audit. Also, we recommended
the Director, Campus Compliance Services, SB/SE Division, ensure effective controls
and adequate procedures are implemented for transferring, storing, and safeguarding
certified mail listings at the Centralized Case Processing function.
Management’s Response: SB/SE Division management agreed with our
recommendations and already has completed the corrective actions. SB/SE Division
management consulted with the Office of Chief Counsel to identify any actions
necessary to correct the potential legal violations. In addition, they reviewed the
process for controlling the Certified Mail Listings (Form 3877). While they complete the
transition to the centralized lien processing, management will list any remaining
Forms 3877 on Document Transmittals (Form 3210), which require acknowledgment of
receipt of listed documents. Management’s complete response to the draft report is
included as Appendix VII.
Copies of this report are also being sent to IRS officials who are affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs) at (631) 654-6028.
   Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures




                                                Table of Contents


Background ............................................................................................... Page 1
Lien Notices Were Not Always Mailed Timely and Proof of
Mailing Could Not Be Located................................................................... Page 3
         Recommendations 1 and 2: .............................................................Page 5

Internal Guidelines Were Not Being Followed for Notifying Taxpayer
Representatives and Resending Undelivered Notices .............................. Page 6
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Outcome Measures............................................................ Page 13
Appendix V – Synopsis of the Internal Revenue Service Collection
and Lien Filing Processes ......................................................................... Page 14
Appendix VI – Internal Revenue Service Computer Systems Used
in the Filing of Notices of Federal Tax Lien ............................................... Page 16
Appendix VII – Management’s Response to the Draft Report ................... Page 17
   Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                                 The Internal Revenue Service (IRS) attempts to collect
Background
                                 Federal taxes due from taxpayers by sending letters, making
                                 telephone calls, and meeting face to face with taxpayers.
                                 When initial contacts by the IRS do not result in the
                                 successful collection of unpaid tax, the IRS has the authority
                                 to attach a claim to the taxpayer’s assets for the amount of
                                 unpaid tax liabilities.1 This claim is referred to as a Federal
                                 Tax Lien. The IRS files a Notice of Federal Tax Lien
                                 (NFTL),2 which notifies people that a lien exists.
                                 Since January 19, 1999, Internal Revenue Code Section
                                 (I.R.C. §) 63203 has required the IRS to notify taxpayers in
                                 writing within 5 business days of the filing of an NFTL.
                                 The IRS is required to notify taxpayers the first time an
                                 NFTL is filed for each tax period. The Notice of Federal
                                 Tax Lien Filing and Your Right to a Hearing Under IRC
                                 63204 (lien notice) is used for this purpose and advises
                                 taxpayers they have 30 calendar days, after that 5-day
                                 period, to request a hearing with the IRS Appeals function.
                                 The lien notice indicates the date this 30-day period expires.
                                 The law also requires that the lien notice explain, in simple
                                 terms, the amount of unpaid tax, administrative appeals
                                 available to the taxpayer, and the provisions of the law and
                                 procedures relating to the release of liens on property. The
                                 lien notice must be given in person, left at the taxpayer’s
                                 home or business, or sent certified or registered mail to the
                                 taxpayer’s last known address.
                                 A synopsis of the IRS collection and lien filing processes is
                                 included in Appendix V. A description of IRS computer
                                 systems used in the filing of liens is included in
                                 Appendix VI.
                                 The IRS is filing an increasing number of NFTLs to protect
                                 the Federal Government’s interest. The number of NFTLs
                                 filed increased significantly from 287,517 in Fiscal
                                 Year (FY) 2000 to 544,316 in FY 2003. In FY 2004, the



                                 1
                                   I.R.C. § 6321 (1994).
                                 2
                                   Notice of Federal Tax Lien (Form 668 (Y) (c)) (Rev.10-1999),
                                 Cat. No. 60025X.
                                 3
                                   I.R.C. § 6320 (Supp. V 1999).
                                 4
                                   Notice of Federal Tax Lien Filing and Your Right to a Hearing Under
                                 IRC 6320 (Letter 3172) (Rev. 11-2004), Cat. No. 267671.
                                                                                               Page 1
Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                              number dropped slightly to 534,392. Figure 1 shows the
                              number of NFTLs filed in the last 5 fiscal years.

                                                                       Figure 1: Liens Filed

                                                      600,000                                     544,316   534,392
                                                                                      482,509




                                    Number of Liens
                                                                          426,166
                                                      500,000

                                                      400,000
                                                                287,517
                                                      300,000

                                                      200,000

                                                      100,000

                                                           0
                                                                2000       2001        2002       2003      2004
                                                                                    Fiscal Year


                              Source: IRS Databook 2003 and 2004.

                              The Treasury Inspector General for Tax Administration
                              (TIGTA) is required to determine annually whether NFTLs
                              filed by the IRS comply with the legal guidelines set forth in
                              the law.5 This review included a site visit to the Compliance
                              Collection Policy function within the IRS Small Business/
                              Self-Employed (SB/SE) Division Headquarters in
                              New Carrollton, Maryland. We performed our audit work
                              during the period August 2004 through March 2005.
                              The audit was conducted in accordance with Government
                              Auditing Standards. Detailed information on our audit
                              objective, scope, and methodology is presented in
                              Appendix I. Major contributors to the report are listed in
                              Appendix II.
                              Results of prior TIGTA reviews
                              This is the seventh annual audit performed to determine if
                              the IRS complied with the legal requirements of I.R.C.
                              § 6320. In the prior years, we reported that the IRS had not
                              yet achieved full compliance with the law and its own
                              internal guidelines. Figure 2 shows that, in FYs 2000,6


                              5
                               I.R.C. § 7803(d)(1)(A)(iii) (Supp. V 1999).
                              6
                               Compliance With Requirements for Notifying Taxpayers of Federal
                              Tax Lien Filings Has Not Yet Been Achieved (Reference
                              Number 2000-10-152, dated September 2000).
                                                                                                               Page 2
   Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                                 2001,7 2002,8 2003,9 and 2004,10 we reported 4, 8, 9, 4, and
                                 5 percent, respectively, of the NFTLs reviewed involved
                                 potential violations of taxpayer rights.

                                                                Figure 2: Potential Violations of Taxpayer Rights

                                                                10%                         9%




                                     Percentage of Violations
                                                                                    8%
                                                                8%

                                                                6%                                          5%
                                                                             4%                     4%
                                                                4%

                                                                2%

                                                                0%
                                                                            2000    2001 2002 2003 2004
                                                                                       Fiscal Year


                                 Source: TIGTA mandatory lien reviews from FYs 2000 through 2004.

                                 Our review of a statistically valid sample of 150 NFTLs
Lien Notices Were Not Always
                                 identified 7 NFTLs (4.67 percent) for which the IRS
Mailed Timely and Proof of
                                 correctly mailed the lien notices; however, it did not mail
Mailing Could Not be Located
                                 the lien notices timely, as required by I.R.C. § 6320. For
                                 the 7 NFTLs, lien notices were not mailed within 5 business
                                 days after the day of the filing of the liens. The notices
                                 were mailed from 1 to 9 days late. We estimate
                                 22,604 NFTL notices prepared from August 1, 2003,
                                 through July 31, 2004, could have been mailed late. See
                                 Appendix IV for details.
                                 Although we could not identify the specific reasons for the
                                 delays, employees did not use the information on the
                                 Automated Lien System (ALS) to prepare the required
                                 notices timely. Therefore, there were delays in sending lien
                                 notifications to taxpayers. Delays in mailing the lien notices


                                 7
                                   Full Compliance With Requirements for Notifying Taxpayers of
                                 Federal Tax Lien Filings Has Not Yet Been Achieved (Reference
                                 Number 2001-10-127, dated August 2001).
                                 8
                                   Compliance with Lien Notice Requirements Has Not Been Achieved
                                 (Reference Number 2002-40-135, dated August 2002).
                                 9
                                   Fiscal Year 2003 Statutory Review of Compliance With Lien Due
                                 Process Procedures (Reference Number 2003-40-066,
                                 dated February 2003).
                                 10
                                    Fiscal Year 2004 Statutory Review of Compliance With Lien Due
                                 Process Procedures (Reference Number 2004-30-086,
                                 dated April 2004).
                                                                                                                    Page 3
Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                              can reduce the time the taxpayers have to request a hearing
                              to less than the 30-day period allowed by the law. These
                              errors could result in taxpayers not being able to appeal the
                              lien filing in court, although the IRS still provides a process
                              for the taxpayer to appeal within the IRS.
                              Timeliness of lien filing determinations could not always
                              be verified
                              We could not determine if the IRS complied with the law in
                              another 35 of the 150 NFTLs (23.3 percent) because SB/SE
                              Division management either could not provide proof of
                              timely mailing or a legible copy of the certified mailing list.
                              IRS procedures require the retention of the date-stamped
                              copy of the certified mail listings for 10 years after the end
                              of the processing year. Without the dated proof of mailing,
                              the IRS may be unable to protect itself against a taxpayer’s
                              claim that he or she did not receive timely notice of the lien
                              filing and was unaware a Federal Tax Lien existed against
                              his or her assets.
                              The process for mailing the notices and obtaining the date
                              stamp on the certified mail listings varies among offices.
                              Some ALS units take the certified mail listings and notices
                              directly to the United States Postal Service for mailing
                              while others rely on the IRS Mailroom function to process
                              the mail and obtain a date stamp on the listings. Beginning
                              in FY 2004, the listings were shipped for storage to the
                              Centralized Case Processing (CCP) function at the
                              Cincinnati Campus11 where they were placed in boxes.
                              However, Cincinnati Campus management was unable to
                              locate all of the cases in our sample. Also, some certified
                              mail listings from one office were lost during either
                              transport to or within the CCP function. This new process
                              significantly increased the number of listings that the IRS
                              could not locate to verify the mailing of the NFTLs. Last
                              year’s audit report indicated that management could locate
                              all but 3.85 percent of the cases in our sample.




                              11
                                A campus is the data processing arm of the IRS. The campuses
                              process paper and electronic submissions, correct errors, and forward
                              data to the Computing Centers for analysis and posting to taxpayer
                              accounts.
                                                                                              Page 4
Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                              The IRS National Headquarters NFTL compliance
                              review identified a similar potential violation of the law12
                              The IRS annually performs a Compliance Lien Collection
                              Due Process Review to ensure IRS procedures are being
                              followed and taxpayers’ rights are being protected. The
                              review includes analyses to determine if the IRS timely
                              notified taxpayers, business partners, spouses, and taxpayer
                              representatives of the filing of an NFTL and timely
                              processed undelivered mail.
                              In May 2004, the IRS completed its FY 2003 review of
                              NFTLs filed from January through August 2003. For one
                              notice, IRS management could not determine if the notice
                              was mailed timely because the certified mail listing was not
                              retained. SB/SE Division management attributed this to
                              employee error. As of March 8, 2005, the IRS had taken
                              appropriate corrective action.

                              Recommendations

                              The Director, Collection, SB/SE Division, should:
                              1. Consult with the Office of Chief Counsel to identify any
                                 actions necessary to correct the potential legal violations
                                 we identified in this audit.
                              Management’s Response: SB/SE Division management
                              consulted with the Office of Chief Counsel to identify any
                              actions necessary to correct the potential legal violations.
                              The Director, Campus Compliance Services, SB/SE
                              Division, should:
                              2. Ensure effective controls and adequate procedures are
                                 implemented for transferring, storing, and safeguarding
                                 certified mail listings at the CCP function.
                              Management’s Response: SB/SE Division management
                              reviewed the process for controlling Certified Mail Listings
                              (Form 3877). While they complete the transition to the
                              centralized lien processing, management will list any
                              remaining Forms 3877 on Document Transmittals


                              12
                                The IRS and the TIGTA used different methodologies when
                              conducting the NFTL reviews; therefore, the results of the two reviews
                              cannot be strictly compared.
                                                                                              Page 5
   Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                                 (Form 3210), which require acknowledgment of receipt of
                                 listed documents.
                                 In 11 (7.33 percent) of the 150 NFTL cases reviewed, the
Internal Guidelines Were Not
                                 IRS did not follow its own internal guidelines when issuing
Being Followed for Notifying
                                 lien notices, including its guidelines for notifying taxpayer
Taxpayer Representatives and
                                 representatives (8 cases) and resending notices when they
Resending Undelivered Notices
                                 are returned as undeliverable (3 cases). As a result,
                                 taxpayers and representatives may not be aware of their
                                 right to a hearing.
                                 Notices were not always sent to taxpayer representatives
                                 For 8 (29.6 percent) of 27 NFTLs13 for which the taxpayer
                                 had a representative, a copy of the lien notice was not sent
                                 to the representative as required by IRS internal guidelines.
                                 The IRS stated this happened because of various reasons,
                                 such as the employees did not forward the taxpayer
                                 representative’s information to the ALS units or ALS unit
                                 employees did not send the notice although they had
                                 received the taxpayer representative’s information.
                                 IRS procedures require that a copy of the notice be sent to
                                 the taxpayer’s representative not later than 5 days after the
                                 notice is sent to the taxpayer when an NFTL is filed. IRS
                                 employees requesting the NFTL and lien notice through the
                                 Automated Collection System (ACS) are responsible for
                                 electronically forwarding the taxpayer representative
                                 information to the ALS units, so a copy of the lien notice
                                 can be sent. Revenue officers using the Integrated
                                 Collection System (ICS) may choose to send the taxpayer
                                 representative information to the ALS unit by facsimile or to
                                 send the lien notice directly to the taxpayer representative
                                 without using the ALS. The ALS units are responsible for
                                 printing and mailing NFTLs and related lien notices.
                                 Of the 8 NFTLs, 3 liens (37.50 percent) were initiated
                                 through the ACS. Although the ACS had taxpayer
                                 representative information for these three liens, the IRS did
                                 not send lien notifications to the taxpayer representatives.
                                 The ACS has the ability to directly send an electronic file of
                                 taxpayer representative information to the ALS unit, where



                                 13
                                   Our review of 150 sample cases identified 27 cases in which the
                                 taxpayer had a representative.
                                                                                                Page 6
Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                              it is printed and manually keyed in by ALS unit personnel;
                              therefore, there are few errors.
                              Although the representative information must still be
                              manually input by ALS unit employees to the ALS, there is
                              a software enhancement planned that could further alleviate
                              the manual process and enable fully automated notification
                              to taxpayer representatives on the ALS. However, the IRS
                              has postponed this enhancement due to other priorities.
                              The other five of eight NFTLs were initiated through the
                              ICS. The revenue officer using the ICS did not document
                              that he or she had requested a lien notice be sent to the
                              taxpayer representative. Revenue officers are required to
                              document in the case history when they request a lien notice
                              for taxpayer representatives. Revenue officers’ managers
                              are also required to review case files for this documentation.
                              The IRS is in the process of designing a programming
                              enhancement to the ICS similar to the ACS change that will
                              electronically forward taxpayer representative information
                              to the ALS units. The scheduled completion date for the
                              ICS enhancement was postponed from its targeted date of
                              middle of FY 2005 and now is slated for completion during
                              FY 2008 due to other priorities.
                              Undelivered notices were not always sent again to
                              taxpayers
                              The IRS procedures require an undeliverable lien notice be
                              sent to a new address if the initial mailing is returned
                              because it could not be delivered and a different address is
                              available. For 20 of 150 NFTLs, the first notice was
                              returned to the IRS as undeliverable. Revenue officers
                              and/or ALS unit employees did not resend notices for
                              3 (33.33 percent) of the 9 NFTLs for which there was
                              another address available. Two of the notices were initiated
                              by revenue officers through the ICS, and one notice was
                              initiated by an employee in the ACS function.
                              When another address is available, employees are
                              responsible for certain actions when notices are returned
                              undeliverable. For liens processed through the ICS,
                              employees in the ALS units research the IRS computer
                              system for a new address. If a new address exists, they will
                              resend the notice. If there is no new address available, the
                              employee forwards the notice to the revenue officer for his
                                                                                     Page 7
Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                              or her action. For liens processed through the ACS, the
                              ALS unit employees research if a new address is available
                              and resend it to the new address. If they cannot find a new
                              address on the IRS computer system, the notice will be
                              shredded and the lien case will be closed.
                              SB/SE Division management is planning to propose and
                              include in their guidelines a 60-day time period within
                              which this process of resending the notice should be
                              completed.
                              The IRS National Headquarters NFTL compliance
                              review identified similar instances of noncompliance
                              with internal guidelines
                              As stated previously, the IRS conducts its own annual
                              compliance review. During this review, the IRS identified
                              instances of taxpayer representatives not receiving a copy of
                              lien notice. The review noted that, although the failure to
                              issue a notice to the taxpayer’s representative is not a
                              potential legal violation, the IRS should follow its own
                              internal guidelines. These results are similar to those of this
                              and prior TIGTA audits. As of March 6, 2005, SB/SE
                              Division management certified that the appropriate
                              corrective action has been completed on those instances in
                              which notices were not sent to representatives.
                              We are making no recommendations at this time regarding
                              internal guidelines. As part of corrective actions to a prior
                              TIGTA report, the IRS has partially implemented systemic
                              changes to improve the notification of taxpayer
                              representatives.




                                                                                      Page 8
     Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The objective of this audit was to determine whether the Notices of Federal Tax Lien (NFTL)
issued by the Internal Revenue Service (IRS) complied with legal requirements set forth in
Internal Revenue Code Section (I.R.C. §) 6320.1 Specifically, we:
I.       Determined whether lien notices issued by the IRS complied with legal requirements set
         forth in I.R.C. § 6320 (a)2 and related internal guidelines.
         A. Obtained from the IRS Automated Lien System (ALS)3 Project Team an extract of
            liens prepared by the IRS nationwide from August 1, 2003, through July 31, 2004.
            The ALS extract contained 484,364 liens and excluded refiled liens. We compared
            the total population for accuracy to the Collection Report of Liens for the same
            period. We validated the sample selected in Test I.B. by accessing the ALS database
            and verifying that the extract information was accurate. We also compared taxpayer
            data to the IRS Integrated Data Retrieval System.
         B. Selected a statistically valid sample of 150 NFTLs for review from the ALS extract in
            Test I.A. We used a statistical sample because we wanted to project the number of
            errors. We used attribute sampling and the following formula to calculate the
            minimum sample size (n) of 143 which we rounded to 150:
                 n = (NZ2 p(1-p)) / (NE2 + Z2 p(1-p))4
                 N = Population (484,364) lien notices)
                 Z = Desired Confidence Level (90 percent)
                 p = Expected Error Rate (5 percent)
                 E = Precision Level (3 percent)
         C. Analyzed 150 liens using data from the ALS, Integrated Collection System,
            Automated Collection System, and Integrated Data Retrieval System to determine
            whether the IRS adhered to the legal and internal guidelines.
             1. Obtained certified mail listings (CML) (also called United States Postal Service
                Forms 3877) for 115 of the 150 sample cases (35 of the 150 CMLs were not
                available) and compared the lien-filed date to the postal mail date on the CML to
                determine whether the lien notice was sent to taxpayers timely.



1
  I.R.C. § 6320 (Supp. V 1999).
2
  I.R.C. § 6320 (a) (Supp. V 1999).
3
  A description of IRS computer systems used in the filing of lien notices is included in Appendix VI.
4
  Using the total population of 484,364 NFTLs, expected error rate of 5 percent and tolerable sampling error of
3 percent and applying the 1.6449 confidence factor for 90 percent confidence level, we calculated a sample size of
143 NFTLs.
                                                                                                           Page 9
  Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

          2. Determined whether taxpayers, spouses, partners, and taxpayer representatives
             received notices.
          3. Determined whether the lien notices were mailed to correct addresses and the
             undeliverable notices were appropriately processed.
       D. Discussed all exception cases with Small Business/Self-Employed Division
          Compliance function management for agreement to potential violations and
          corrective action, if appropriate.
II.    Determined whether internal guidelines have been implemented or modified since our
       last review by discussing procedures and controls with appropriate IRS personnel in the
       Small Business/Self-Employed Division Compliance function. Our review included
       quality review procedures and the centralization of the ALS units.
III.   Determined the status of the Integrated Collection System and Automated Collection
       System enhancements as planned and any problems encountered.




                                                                                        Page 10
  Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                                                                         Appendix II


                           Major Contributors to This Report

Philip Shropshire, Director
Parker Pearson, Director
Lynn Wofchuck, Audit Manager
Pillai Sittampalam, Lead Auditor
James Dorrell, Senior Auditor




                                                                              Page 11
 Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 12
    Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                                                                                                   Appendix IV

                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•    Taxpayer Rights and Entitlements – Potential; 22,604 Notices of Federal Tax Lien (NFTL)
     with legal violations of taxpayers’ rights (see page 3).
Methodology Used to Measure the Reported Benefit:
From the nationwide statistically valid sample of 150 NFTLs,1 we identified 7 NFTLs
(4.67 percent) with potential legal violations of taxpayers’ rights. The sample was selected based
on a confidence level of 90 percent, a precision level of +3 percent, and an expected error rate of
5 percent. After reviewing the 150 NFTLs in our sample, we determined that the actual error
rate was 4.67 percent, which caused us to have to change the precision level to +2.84 percent.
We projected the findings to the total population provided by the Internal Revenue Service of
484,364 NFTLs prepared by the Automated Lien System2 from August 1, 2003, through
July 31, 2004. We estimated that similar taxpayer rights could have been affected in
22,604 NFTLs (7/150 x 484,364 population). We are 90 percent confident that the range of
NFTLs affected by similar errors is between 21,962 and 23,246.
Taxpayer rights could be affected because the taxpayer not receiving a notice or receiving a late
notice might not be aware of the right to appeal or have less than the 30-day period allowed by
the law to request a hearing. In addition, taxpayer rights could be affected when the taxpayer
appeals the filing of the lien and the Internal Revenue Service denies the request for the appeal.




1
  One NFTL may require multiple lien notices since the Internal Revenue Service is required to separately notify
taxpayers’ spouses and business partners.
2
  See Appendix VI for a description of this system.




                                                                                                           Page 13
    Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                                                                                      Appendix V


                         Synopsis of the Internal Revenue Service
                           Collection and Lien Filing Processes

The collection of unpaid tax begins with a series of letters (notices) sent to the taxpayer advising
of the debt and asking for payment of the delinquent tax. The Internal Revenue Service (IRS)
computer systems are programmed to mail these notices when certain criteria are met. If the
taxpayer does not respond to these notices, the account is transferred for either personal or
telephone contact. A description of IRS computer systems used in the filing of lien notices is
included in Appendix VI.
•    IRS employees who make personal (face-to-face) contact with taxpayers are called revenue
     officers and work in the IRS Area Offices. The computer system used in most of the Area
     Offices to track collection actions taken on taxpayer accounts is called the Integrated
     Collection System.
•    IRS employees who make only telephone contact with taxpayers work in call sites in IRS
     Customer Service offices. The computer system used in the call sites to track collection
     actions taken on taxpayer accounts is called the Automated Collection System.
When these efforts have been taken and the taxpayer has not paid the tax liability, designated
IRS employees are authorized to file a Notice of Federal Tax Lien (NFTL). Liens protect the
Federal Government’s interest by attaching a claim to the taxpayer’s assets for the amount of
unpaid tax liabilities. The right to file an NFTL is created by Internal Revenue Code
Section 6321 (1994) when:
•    The IRS has made an assessment and given the taxpayer notice of the assessment, stating the
     amount of the tax liability and demanding payment.
•    The taxpayer has neglected or refused to pay the amount within 10 days after the notice and
     demand for payment.
When designated employees request the filing of an NFTL using either the Integrated Collection
System or Automated Collection System, the NFTL requests from both systems are transferred
to the Automated Lien System (ALS). All NFTLs are processed by the ALS unless there is an
expedite situation, in which case the NFTL is manually prepared. Although they are manually
prepared and not printed through the ALS, manual NFTLs are tracked and controlled on the ALS
and the lien notice is processed through ALS. The ALS maintains an electronic database of all
open NFTLs and updates the IRS primary computer records to indicate an NFTL has been filed.
Most lien notices are mailed to taxpayers by certified or registered mail rather than being
delivered in person. To maintain a record of the notices, the IRS prepares a certified mail listing
(United States Postal Service (USPS) Form 3877), which identifies each notice that is to be
mailed. The notices and a copy of the certified mail listing are delivered to the USPS. A USPS
employee ensures all notices are accounted for, then date stamps the listing and returns a copy to
                                                                                             Page 14
  Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

the IRS. The stamped certified mail listing is the only documentation the IRS has that certifies
the date the notices were mailed. IRS guidelines require that the stamped certified mail listing be
retained for 10 years after the end of the processing year.




                                                                                           Page 15
    Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                                                                                                Appendix VI


                        Internal Revenue Service Computer Systems
                       Used in the Filing of Notices of Federal Tax Lien

The Automated Lien System (ALS) is a comprehensive database that prints Notices of Federal
Tax Lien (NFTL) and lien notices, stores taxpayer information, and documents all lien activity.
Lien activities on both the Integrated Collection System and the Automated Collection System
cases are controlled on the ALS by Technical Support or Case Processing functions in Area
Offices. Employees in these Area Offices process NFTLs and lien notices and respond to
taxpayer inquiries using the ALS.
The Integrated Collection System (ICS) is an Area Office computer system with applications
designed around each of the main collection tasks, such as opening a case, assigning a case,
building a case, performing collection activity, and closing a case. The ICS is designed to
provide management information, create and maintain case histories, generate documents, and
allow online approval of case actions. Lien requests made using the ICS are uploaded to the
ALS. The ALS generates the NFTL and related lien notices and updates the Internal Revenue
Service’s (IRS) primary computer files to indicate an NFTL has been filed.
The Automated Collection System (ACS) is a computerized call site inventory system that
maintains balance due accounts and return delinquency investigations. The ACS employees
enter all of their case file information (online) on the ACS. Lien notices requested using the
ACS are uploaded to the ALS, which generates the NFTL and related lien notices and updates
the IRS’ primary computer files to indicate an NFTL has been filed.
The Integrated Data Retrieval System (IDRS) is an online data retrieval and data entry system
that processes transactions entered from terminals located in both campuses1 and Area Offices.
The system enables employees to perform such tasks as researching account information,
requesting tax returns, entering collection information, and generating collection documents.
The IDRS serves as a link from campuses and Area Offices to the Master File for the IRS to
maintain accurate records of activity on taxpayers’ accounts.
The Master File is the IRS database that stores various types of taxpayer account information.
This database includes individual, business, and employee plans and exempt organizations data.




1
 A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.

                                                                                                        Page 16
Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures

                                                                     Appendix VII


                 Management’s Response to the Draft Report




                                                                            Page 17
Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures




                                                                            Page 18
